NATIONAL OCEANIC
AND ATMOSPHERIC
ADMINISTRATION
Audit of the Joint Polar
Satellite System: To Further
Mitigate Risk of Data Gaps,
NOAA Must Consider
Additional Missions,
Determine a Strategy, and
Gain Stakeholder Support

FINAL REPORT NO. OIG-14-022-A
JUNE 17, 2014


U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation


FOR PUBLIC RELEASE
                                                                UNITED STATES DEPARTMENT OF COMMERCE
                                                               Office of Inspector General
                                                               Washington, D.C. 20230




 June 17, 2014

  MEMORANDUM FOR: Dr. Kathryn Sullivan




  FROM:
                                         minist t r .


                                         I
                             Allen C rawey
                                                        fl}
                                                      /~~ 	 --
                                                                  c:
                  Under Secretary of Commerce for Oceans and Atmosphere
                               and NOAA A~                                   .
                                                                                        /l

                                                                       _,,,t/ct it.A.,-f!__x.~~
                                                                             ~                        


                             Assistant Inspector General for Systems Acquisitio~ 

                               and IT Security 


  SUBJECT:                   Audit of the Joint Polar Satellite System: To Further Mitigate Risk of
                               Data Gaps, NOAA Must Consider Additional Missions, Determine a
                               Strategy, and Gain Stakeholder Support
                               Final Report No. OIG-14-022-A

Attached is our final report on NOAA's Joint Polar Satellite System UPSS). Our audit objectives
were to (I) monitor NOAA's progress toward establishing JPSS cost, schedule, and
performance baselines; (2) assess ongoing development activities; and (3) review efforts to
mitigate a potential data gap between Suomi National Polar-orbiting Partnership (Suomi NPP)
and JPSS-1 satellites.

We found the following:

   • 	 JPSS established its program baselines after the Department and NOAA reduced system
       capabilities to lower the life-cycle cost and focus its missions-but to further mitigate
       risk of data gaps, NOAA is likely to plan additional missions beyond JPSS-2. This would
       effectively increase the overall cost, duration, and robustness of the program.
   • 	 The JPSS-1 mission addressed a number of technical and schedule challenges before the
       integration and test phase of development. This reduced JPSS-1 development risk, but
       schedule revisions will prolong operational risks from the use of an outdated ground
       system supporting Suomi NPP until NOAA transitions to an upgraded system prior to
       JPSS-1 launch.
   • 	 NOAA has begun gap mitigation activities but should better quantify the value of JPSS
       data in order to establish the benefits gained from it, as well as justify further
       investments in environmental satellite capabilities.

We have summarized NOAA's response to our draft report and included its entire formal
response as appendix E. The final report will be posted on OIG's website pursuant to section
SM of the Inspector General Act of 1978, as amended.
In accordance with Department Administrative Order 213-5, please provide us your action plan
within 60 days of this memorandum. The plan should outline the actions you propose to take
to address each audit recommendation.

Please direct any inquiries regarding this report to me at (202) 482-1855, or Fred Meny,
Director, Satellites and Weather Systems, at (202) 482-1931, and refer to the report title in all
correspondence.

Attachment

cc:	   Bruce Andrews, Acting Deputy Secretary
       Ellen Herbst, Chief Financial Officer and Assistant Secretary for Administration
       VADM Michael S. Devany, Under Secretary for Operations, NOAA
       Mary E. Kicza, Assistant Administrator, National Environmental Satellite, Data,
         and Information Services, NOAA
       Harry Cikanek, JPSS Program Director, NOAA
       Mack Cato, Director, Office of Audit and Information Management, NOAA




                                                2
                                               Report In Brief                                        J U NE 1 7 , 2 0 1 4




Background                            NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION
The Joint Polar Satellite System      Audit of the Joint Polar Satellite System: To Further Mitigate Risk
(JPSS) program was established in
2010 when the Administration          of Data Gaps, NOAA Must Consider Additional Missions, Determine
chose to restructure the trou-        a Strategy, and Gain Stakeholder Support
bled National Polar-orbiting Op-
                                      OIG-14-022-A
erational Environmental Satellite
System (NPOESS)—a tri-agency          WHAT WE FOUND
partnership among the Depart-
ment of Defense, NOAA, and            We found that
NASA—into separate civil and            JPSS Program Baselines Were Established After Department and NOAA Reduced System Capabilities
defense programs. JPSS currently        to Lower the Life-Cycle Cost and Focus Its Missions, but Baselines May Be Revised to Mitigate Risk of
supports the operation of one           Data Gaps. Significant changes introduced in NOAA’s FY 2014 budget present concerns about
satellite and is developing and         coordination with new programs, potential schedule changes, and other cost issues. Also, the
launching two, next-generation          program’s revised life-cycle cost estimate is more reliable than previous estimates, but
polar-orbiting satellites (JPSS-1       opportunities for additional cost savings may arise. Finally, NOAA will evaluate options for
and JPSS-2) with new, more ca-          additional missions, and the JPSS program will need to revise its formulation.
pable instruments to replace
NOAA’s legacy polar satellites.         NOAA Leadership Deemed JPSS-1 Ready for the Next Phase of Development—but Technical,
                                        Schedule, and Programmatic Challenges Await. The JPSS-1 flight project currently has adequate
                                        schedule margins, but integration and test activities could diminish schedule margins and
Why We Did This Review                  funding reserves. Delayed facility work complicated the scheduling of ground system upgrades,
Developing next-generation envi-        which added JPSS-1 development risk and resulted in prolonged operational use of inadequate
ronmental satellite systems is a        security controls. And, despite master schedule uncertainties, the standing review board
top management challenge for            recommended approval of a JPSS-1 key decision point.
the Department and NOAA.                NOAA Has Begun Gap Mitigation Activities but Should Do More to Help Stakeholders Understand
Given its national significance and     the Consequences of a Gap. The avoidance of gaps will depend upon whether on-orbit satellites
large budget, we have conducted         continue to operate and the constellation’s ability to tolerate unexpected failures.
oversight of NOAA’s JPSS since          Stakeholders, and the JPSS program, would benefit were NOAA better able to communicate
the Administration directed its         the consequences of an afternoon orbit weather data gap—in terms of the extent of expected
establishment in 2010, after man-       forecast degradation, as well as the resulting economic costs.
agement and technical problems
led to cost increases, schedule       WHAT WE RECOMMEND
delays, and capability reductions
                                      We recommend that the NOAA Administrator
for its predecessor program,
NPOESS. This is our third audit       1. Establish reporting metrics to ensure adequate coordination among JPSS, Solar Irradiance, 

report and fourth oversight              Data and Rescue (SIDAR), and NASA climate instrument programs for review at monthly 

product focused on JPSS.                 Program Management Council meetings. 

                                      2. Ensure that JPSS-2 operations and sustainment costs beyond FY 2025 are delineated in 

Our objectives were to (1)
                                         stakeholder briefing materials about plans for additional missions.

monitor NOAA’s progress
toward establishing JPSS cost,        3. Leverage Office of Acquisition Management (OAM)-led cost analysis expertise to explore 

schedule, and performance                cost savings opportunities in acquisitions beyond JPSS-2.

baselines; (2) assess ongoing         4. Ensure that stakeholders are provided formal documentation of NOAA’s response to
development activities; and (3)          independent review team recommendations and its corresponding acquisition strategy.
review efforts to mitigate a          We recommend that the NOAA Assistant Administrator for Satellite and Information Services
potential data gap between
                                      5. Ensure that stakeholders (including Congress) are provided updated information on the
Suomi National Polar-orbiting
                                         results and confidence level of the JPSS-1 mission’s integrated master schedule.
Partnership (Suomi NPP) and
JPSS-1 satellites.                    We recommend that the NOAA Deputy Under Secretary for Operations
                                       6. Direct appropriate NOAA entities to explain the effects of a potential afternoon orbit data
                                          gap in terms of degraded forecast hours and extrapolated economic costs, or conversely,
                                          the contribution to forecast accuracy and the economic benefits of afternoon orbit data.
  U.S. DEPARTMENT OF COMMERCE                                                                                            OFFICE OF INSPECTOR GENERAL


Contents 

Introduction .......................................................................................................................................................1
 
Objectives, Findings, and Recommendations .............................................................................................3
 
     I.	        JPSS Program Baselines Were Established After Department and NOAA Reduced 

                System Capabilities to Lower the Life-Cycle Cost and Focus Its Missions, but Baselines 

                May Be Revised to Mitigate Risk of Data Gaps ............................................................................3
 
            A.	  Significant changes introduced in NOAA’s FY 2014 budget present management 

                 challenges and concerns.................................................................................................................4
 
            B.	  The program’s revised life-cycle cost estimate is more reliable than previous 

                 estimates; opportunities for additional cost savings may arise .............................................6
 
            C.	  NOAA will evaluate options for additional missions in order to provide a longer- 

                 term, more robust constellation of polar satellites, and the JPSS program will need 

                 to revise its formulation .................................................................................................................8
 
     Recommendations..................................................................................................................................... 10
 
     II.	       NOAA Leadership Deemed JPSS-1 Ready for the Next Phase of Development—but 

                Technical, Schedule, and Programmatic Challenges Await ..................................................... 11
 
            A.	  The JPSS-1 flight project currently has adequate schedule margins, but integration 

                 and test activities could diminish schedule margins and funding reserves....................... 11
 
            B.	  Delayed work on facilities complicated the scheduling of ground system upgrades, 

                 which added risk to JPSS-1 development and resulted in prolonged operational use 

                 of inadequate security controls ................................................................................................. 13
 
            C.	  Despite uncertainties in the JPSS-1 mission master schedule, the standing review 

                 board recommended approval of Key Decision Point-C .................................................... 15
 
     Recommendation....................................................................................................................................... 16
 
     III.	  NOAA Has Begun Gap Mitigation Activities but Should Do More to Help 

            Stakeholders Understand the Consequences of a Gap ........................................................... 17
 
            A.	  The avoidance of gaps will depend upon whether on-orbit satellites continue to 

                 operate and the constellation’s ability to tolerate unexpected failures ........................... 17
 
            B.	  NOAA has not fully identified the consequences of a data gap ......................................... 19
 
     Recommendation....................................................................................................................................... 22
 
Summary of Agency Response and OIG Comments............................................................................. 23
 
Appendix A: Objectives, Scope, and Methodology ................................................................................ 24
 
Appendix B: JPSS Background ..................................................................................................................... 26
 
Appendix C: JPSS Cost Estimate History ................................................................................................. 30
 
Appendix D: OIG Products Related to NOAA Satellite Acquisitions .............................................. 31
 
Appendix E: Agency Response.................................................................................................................... 32
 



                                                                                                                           FINAL REPORT NO. OIG-14-022-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                                OFFICE OF INSPECTOR GENERAL


Introduction 

Developing next-generation environmental satellite systems is a top management challenge for
the Department and the National Oceanic and Atmospheric Administration (NOAA). Given its
national significance and large budget, we have conducted oversight of NOAA’s Joint Polar
Satellite System (JPSS) since the Administration directed its establishment, in 2010, after
management and technical problems led to cost increases, schedule delays, and capability
reductions for its predecessor program, the National Polar-orbiting Operational Environmental
Satellite System (NPOESS). This is our third audit report and fourth oversight product focused
on JPSS.1

One of our prior recommendations, from our September 2012 report,2 was that NOAA should
determine an acquisition strategy for polar satellites beyond the currently defined program—
which is limited to developing two satellites, launching 5 years apart, and ends in 2025. In
response, NOAA indicated that doing so was dependent upon its negotiations with the Office
of Management and Budget (OMB) and Congress and it would work to obtain guidance in fiscal
year (FY) 2013 appropriations law. Such guidance did not materialize, however, and NOAA did
not address a longer-term acquisition strategy in its FY 2014 budget submission. In November
2013, NOAA’s expert independent review team found that the JPSS acquisition strategy was
hindered by its current limit of developing just two satellites, which leaves the risk of a gap in
polar satellite weather data unacceptably high both in the near term and the foreseeable
future.3 In January 2014, Congress declared that it expected NOAA, with the FY 2015 budget,
to provide a strategy that “fully addresses” these issues—and permitted NOAA to use FY 2014
and earlier funds for the procurement of spare instruments and spacecraft.4

Prior to the independent review team’s findings, on August 1, 2013, the Deputy Secretary
approved the program’s current cost, schedule, and performance baselines—and the passage of
a major milestone signifying the completion of the formulation phase of the program life cycle
and the formal start of the implementation phase.5 The formal establishment of those baselines
occurred subsequent to significant changes to the capabilities JPSS will provide, which were
introduced in the FY 2014 budget submission and stemmed from the independent review
team’s initial recommendations for the program, issued in July 2012, and a need to reduce the
program’s life-cycle cost. (Figure 1, below, provides a timeline of key events in the
establishment of the program’s baselines.)

                                                            
1
  See appendix D for a list of our products on JPSS and other NOAA satellite acquisitions.

2
  U.S. Department of Commerce Office of Inspector General, September 27, 2012. Audit of the Joint Polar Satellite 

System: Continuing Progress in Establishing Capabilities, Schedules, and Costs Is Needed to Mitigate Data Gaps, OIG-12-
038-A. Washington, DC: DOC OIG.

3
  NOAA NESDIS Independent Review Team, November 8, 2013. Assessment Update One Year Later [Online]

www.nesdis.noaa.gov/news_archives/irt_report_2013.html (accessed November 15, 2013). 

4
  160 Cong. Rec. H510 (daily ed. Jan. 15, 2014) (statement of Rep. Rogers). 

5
  In actuality, the program’s constituent projects had already been implementing program plans for the acquisition 

and development of system components.




FINAL REPORT NO. OIG-14-022-A                                                                                         1
  U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL

With additional changes likely to result from the independent review team’s November 2013
recommendations, the program will need to re-cycle through formulation and require
additional Department-level (as well as OMB and Congressional) approval for what will be
significant revisions to its baselines. This will be an opportunity for the program—to better
support NOAA’s mission and strategic goals for the long term—but will also challenge the
ability of leadership to oversee and direct the execution of the JPSS program’s recently
established baselines, as attention divides between life-cycle phases.

     Figure 1. Key Events in the Evolution of JPSS Program Baselines (2012–2014)




    Source: OIG, adapted from NOAA budget, legislation, and JPSS program documentation

Appendix B provides more complete background information and context for our findings and
recommendations.




2                                                                                FINAL REPORT NO. OIG-14-022-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL


Objectives, Findings, and Recommendations 

Our objectives were to (1) monitor NOAA’s progress toward establishing JPSS cost, schedule,
and performance baselines; (2) assess ongoing development activities; and (3) review efforts to
mitigate a potential data gap between Suomi National Polar-orbiting Partnership (Suomi NPP)
and JPSS-1 satellites. We found that program baselines were established after the Department
and NOAA reduced system capabilities to lower the life-cycle cost and focus its missions—but,
to further mitigate risk of data gaps, NOAA is likely to plan additional missions beyond JPSS-2.
This would effectively increase the overall cost, duration, and robustness of the program. The
JPSS-1 mission addressed a number of technical and schedule challenges before the integration
and test phase of development. This reduced JPSS-1 development risk, but schedule revisions
will prolong operational risks from the use of an outdated ground system supporting Suomi
NPP until NOAA transitions to an upgraded system prior to JPSS-1 launch. NOAA has begun
gap mitigation activities but should better quantify the value of JPSS data in order to establish
the benefits gained from it, and to justify further investments in environmental satellite
capabilities. See appendix A for a full discussion of our objectives, scope, and methodology.

    I.	     JPSS Program Baselines Were Established After Department and NOAA 

            Reduced System Capabilities to Lower the Life-Cycle Cost and Focus Its 

            Missions, but Baselines May Be Revised to Mitigate Risk of Data Gaps 


          With the submission of its FY 2014 budget (see table 1, below), the Department and
          NOAA proposed a new life-cycle cost of $11.3 billion6 and a number of changes to the
          content of the program. These changes were spurred by legislative stakeholders’
          unfavorable reaction to the FY 2013 proposed life-cycle cost of $12.9 billion and an expert
          independent review team’s recommendations, in July 2012, to remove certain requirements
          in order to focus JPSS on weather forecasting and ozone monitoring. Program changes were
          announced in an April 2013 decision memorandum from the Acting Secretary. The late
          announcement of program changes delayed, by 1 month, the program’s system definition
          review, which was a prerequisite to passing a major program milestone, Key Decision Point-
          I, and a formal commitment to cost, schedule, and performance (i.e., the scope of system
          capabilities) baselines. Subsequent findings from NOAA’s independent review team,
          however, have led NOAA to evaluate adding missions and effectively extending the life cycle
          of JPSS beyond its current planned end in 2025.7

 




                                                            
6
 See appendix C for a complete history of JPSS program life-cycle cost estimates. 

7
 NOAA officials told us that it may be required to fund additional missions under a separate line item in its budget 

but would manage the missions under the current JPSS program. 





FINAL REPORT NO. OIG-14-022-A                                                                                       3
  U.S. DEPARTMENT OF COMMERCE                                                  OFFICE OF INSPECTOR GENERAL

       Table 1. Comparison of the Program as Defined in FY 2013 and 2014 Budgets

                              FY 2013 Budget                      FY 2014 Budget Submission
                                Submission                       JPSS                       Non-JPSS

       Life-cycle Cost
                                     $12.9                      $11.3a                        $0.701b
       (billions)

       End of Program
                                   FY 2028                      FY 2025                        N/A
       Life Cycle

                            JPSS-1: Q2 FY 2017         JPSS-1: NLT Q2 FY 2017 
       Launch Dates                                                                            N/A
                            JPSS-2: Q1 FY 2022c        JPSS-2: Q1 FY 2022 

                              ATMS, CrIS, VIIRS,
       JPSS-1 mission                                         Unchanged                        N/A
                               OMPS-N, CERES

                             ATMS, CrIS, VIIRS,           ATMS, CrIS, VIIRS,          OMPS-L, RBI to NASA 
       JPSS-2 mission
                            OMPS-N, OMPS-L, RBI              OMPS-N                 (JPSS-2 to host if possible) 

       Free Flyer-1                                    Ground system supports           Polar Free Flyer
                           TSIS-1, SARSAT,d ADCSd
       mission                                            Polar Free Flyer         (TSIS-1, SARSAT,d ADCSd)

       Free Flyer-2
                           TSIS-2, SARSAT,d ADCSd              Cancelled                 TSIS-2 to NASA
       mission

       Source: NOAA budget submissions and JPSS program documentation

       a
         Includes $2.5 billion spent under NPOESS, as well as some development and operations support costs

       for Suomi NPP.

       b
         Estimated costs for capabilities removed from JPSS and transferred to other NOAA or NASA programs; 

       Polar Free Flyer’s life-cycle cost, estimated at $335 million, was not funded in the FY 2014 omnibus 

       appropriation; life-cycle cost estimate for instruments transferred to NASA was $366 million. 

       c
         JPSS-2 launch readiness date; actual launch date to be determined. 

       d
         Search and Rescue Satellite Aided Tracking (SARSAT) and Advanced Data Collection System (ADCS)

       instruments to be supplied by international partners. 


    A.	 Significant changes introduced in NOAA’s FY 2014 budget present management challenges and
        concerns

       NOAA left unchanged the scope of the JPSS-1 satellite mission, given its advanced stage
       of development and need to stay on schedule. The most significant program change
       (1) moved the JPSS free flyer-1 satellite and its instruments to a separate NOAA
       program called Polar Free Flyer and (2) cancelled the JPSS free flyer-2 satellite mission.
       Further, NOAA transferred the Ozone Mapping and Profiler Suite-Limb (OMPS-L),
       Radiation Budget Instrument (RBI), and the second Total Solar Irradiance Sensor (TSIS-
       2, originally planned for free flyer-2) to NASA for funding and development. JPSS retains
       responsibility, however, for providing ground system support to Polar Free Flyer. And
       the JPSS-2 satellite will still host OMPS-L and RBI, if NASA can provide the instruments
       in time for satellite integration, testing, and launch need dates. Finally, the JPSS life cycle
       was reduced 3 years, from FY 2028 to FY 2025. These changes raise concerns going
       forward: (1) JPSS must coordinate with new programs managing capabilities removed


4                                                                                FINAL REPORT NO. OIG-14-022-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL

              from, but still supported by, JPSS; (2) the removed content may lack adequate funding
              and support, which could have cost and schedule ramifications for JPSS; (3) the scope of
              JPSS life-cycle cost is inconsistent with the Departmental definition of such cost; and (4)
              cost reductions from removed capabilities are not the same as cost savings for the
              government.

              1. JPSS must coordinate with new programs established for the removed (but still
              supported) capabilities. While the FY 2014 changes were intended to focus JPSS on
              NOAA’s weather mission, JPSS will still support nonweather forecasting related
              capabilities ostensibly removed from the program. This will require interfacing with new
              programmatic entities established for the transferred capabilities, adding to
              communication and coordination challenges the program already faces with other
              entities related to the program.8 If the new programs experience delays due to funding
              or development issues, these could affect JPSS costs and schedules given that the JPSS
              ground system and JPSS-2 satellite will have integrated roles in those missions. Despite
              NOAA’s assurances that OMPS-L and RBI will be accommodated only if they can meet
              JPSS-2 schedule milestones, in our view there is likely to be pressure to delay JPSS-2
              launch if, after significant investment in those instruments, more time is needed before
              they can be delivered to the program for satellite integration.9 A JPSS-2 launch delay
              would increase the potential for another gap in key weather data from the afternoon
              polar orbit.

              2. Removed program content may not have adequate funding or programmatic
              support. Uncertain funding and programmatic support for the capabilities removed from
              JPSS could still have cost and schedule ramifications for the program. The Polar Free
              Flyer and NASA-transferred instruments will compete for resources with other NOAA
              and NASA programs. Budget sequestration in FY 2013 had already slowed development
              of the free-flyer mission, and Congress chose not to fund Polar Free Flyer in the FY
              2014 omnibus appropriations law. In its FY 2015 budget submission, NOAA renamed
              the program Solar Irradiance, Data and Rescue (SIDAR), requested $15 million, and
              planned to revise its acquisition strategy for this capability. The JPSS ground project may
              need to adjust its contracts and schedules to accommodate changing plans for
              supporting SIDAR if it retains the requirement to support that program. Further,
              potential NASA funding shortages for OMPS-L and RBI development projects would add
              uncertainty to the JPSS-2 integration and test schedule.




                                                            
8
  See DOC OIG, September 2011. Audit of the Joint Polar Satellite System: Challenges Must be Met to Minimize Gaps in
Polar Environmental Satellite Data, OIG-11-034-A, Washington, DC: DOC OIG, 4, 7, as well as OIG-12-038-A, 17.
9
  In response to our draft report, NOAA asked that we acknowledge its ongoing development of a formal
agreement with NASA to ensure JPSS-2 remains on schedule if OMPS-L and RBI were delayed. According to
recent program reporting, however, this agreement is pending a decision by the Department’s Milestone Review
Board in July 2014. Further, we have not reviewed the agreement, as it was still being drafted during our review
period. It remains our view that, even with such an agreement, some degree of this type of risk exists.




FINAL REPORT NO. OIG-14-022-A                                                                                      5
  U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL

              3. The shortened program life cycle is not consistent with the Department’s
              definition of life-cycle cost.10 As currently planned, the JPSS-2 mission’s life span of 7
              years will extend 3 years beyond the program’s life-cycle end date in FY 2025.
              Therefore, the JPSS cost estimate does not account for the entire life span of the
              mission. Both JPSS satellites will be designed for a mission life of 7 years, with a 70
              percent probability of meeting key performance parameters at 5 years. The second
              satellite, JPSS-2, is planned to launch in the first quarter of FY 2022. JPSS-2 mission
              operations and maintenance of the ground system, therefore, would reasonably be
              expected to continue through FY 2028, if not longer. Even at the 5-year point described
              above, the mission life would last through FY 2026. JPSS managers had told us that
              NOAA expected that a follow-on program to JPSS would cover these costs after FY
              2025. More recently, program officials told us of plans to cover these expenses under
              NOAA’s Operations, Research, and Facilities appropriation (as opposed to JPSS funds in
              its Procurement, Acquisition, and Construction account). The Department’s acquisition
              policy, however, does not allow either distinction in determining life-cycle cost, which it
              defines as inclusive of expected operation and maintenance expenses over the planned
              life span “without regard to funding source or management control.” We recognize,
              however, that stakeholders were involved in and approved of the decision to shorten
              the program’s life cycle, but we emphasize the need for transparency in cost estimates
              generated for future missions.

              4. Cost reductions from removing program capabilities will not result in an
              equivalent savings for the government. While JPSS’s life-cycle cost estimate is now
              $1.6 billion less than the prior estimate, it does not represent a savings of that amount
              to the government, given plans for NOAA and NASA to continue developing the
              removed capabilities. Accounting for $700 million of the prior JPSS cost estimate, the
              costs for the removed capabilities will now be borne by other government programs.
              Budget challenges put the transitioned programs at risk of schedule delays and cost
              increases.

       B.	 The program’s revised life-cycle cost estimate is more reliable than previous estimates; 

           opportunities for additional cost savings may arise 


              Notwithstanding our concern about the proper duration of the program’s life cycle
              (discussed in I.A.3, above), we conclude that the program’s revised life-cycle cost
              estimate of $11.3 billion is more reliable than previous estimates.11 The estimate was
              independently validated by an experienced and well-resourced team led by the Office of
              Acquisition Management (OAM), which received support from cost analysis experts in
                                                            
10
   The Policy on Commerce Acquisition Project Management (November 6, 2012), on page 3, defines life-cycle cost as
“the total of the direct, indirect, and nonrecurring costs, including…expenses incurred or estimated to be incurred
in the design, development, verification, production, operation, maintenance, support, and retirement of a program
or project over its planned lifespan, without regard to funding source or management control”
(emphasis added).
11
   See DOC OIG, OIG-12-038-A, for our assessment of the program’s 2011 cost estimating process and
recommendations to ensure future cost estimates were more reliable.




6                                                                                    FINAL REPORT NO. OIG-14-022-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL

              the Air Force, Navy, National Reconnaissance Office, and others. This team obtained
              better, more comprehensive data than earlier independent and NOAA cost estimators
              had previously, particularly for ground system and spacecraft contracts. OAM shared
              the data with NOAA’s cost estimator as it separately developed the program office
              estimate. With $4.3 billion spent prior to FY 2013, OAM’s independent cost estimate to
              completion (FYs 2013–2025) of $7.2 billion was just 1.1 percent more than the program
              office estimate before the two were fully reconciled.12

              The JPSS standing review board also performed an independent assessment of the
              program office estimate and found that the program’s approach to developing the
              estimate was acceptable, the basis of the estimate credible, and the annual phasing of
              funds appropriate. It assessed somewhat higher levels of uncertainty to instrument and
              spacecraft costs than the program’s cost estimators, which resulted in a 4 percent
              higher estimate than the program’s. The review board deemed this difference acceptable
              and concluded that the program’s life-cycle cost estimate was reasonable.

              Prior to the reconciliation of the program office and independent cost estimates, OAM
              identified risks as well as opportunities for cost savings. As an example, OAM found that
              mission assurance requirements and associated contract costs for spacecraft and
              instruments have grown with each successive contract (from NPP through JPSS-2).
              OAM recommended that further consideration be given to balancing these
              requirements with affordability.

              It also noted that program support costs were about $2 billion, or 28 percent of
              remaining expenditures (FYs 2013–2025). OAM found this to be in excess of other
              comparable NASA and Department of Defense space acquisitions. In November 2013,
              updated analysis presented to NOAA’s Program Management Council found the
              differences to be less dramatic, after normalizing data for more direct comparisons.
              These costs are driven by acquisition processes, the program scope, and oversight and
              mission assurance requirements.

              Other cost considerations included the JPSS-2 spacecraft acquisition strategy,
              uncertainty regarding the cost of JPSS-2’s launch vehicle, ground system estimates that
              did not account for costs of transferring development responsibility to NOAA (planned
              to occur 1 year after JPSS-1 is launched), and management reserves not tied to discrete
              program risks. The program incorporated these considerations as it reconciled the
              independent cost estimate with the program office estimate and is working to further
              examine cost saving efficiencies. OAM will maintain the independent cost estimate to
              support annual updates and measures of program performance against its baselines.

              In our view, OAM (and its distributed independent cost estimating team) has significantly
              improved the validation of JPSS cost estimates and has raised important considerations

                                                            
12
   The program’s estimate for FYs 2013–2025 was $7.1 billion. Current total cost to completion (FYs 2014–2025)
is $6.2 billion.




FINAL REPORT NO. OIG-14-022-A                                                                                    7
  U.S. DEPARTMENT OF COMMERCE                                                                     OFFICE OF INSPECTOR GENERAL

              regarding the affordability of JPSS capabilities. As such, the Department and NOAA
              would benefit from OAM expertise in evaluating budgets for additional satellite missions.

       C.	 NOAA will evaluate options for additional missions in order to provide a longer-term, more
           robust constellation of polar satellites, and the JPSS program will need to revise its formulation

              On August 1, 2013—after the required oversight boards examined the adequacy of the
              JPSS program’s formulation—the Acting Deputy Secretary, who served as the milestone
              decision authority, formally approved the program’s cost and schedule baseline
              commitments (shown in tables 2 and 3, below) and authorized the program to proceed
              with implementation. JPSS has now established its cost, schedule, and performance
              baselines. However, the program will need to return to the formulation phase and
              revise its baselines if NOAA chooses—as seems likely—to add missions after NOAA’s
              independent review team found that NOAA’s current approach is not sufficiently
              robust.

                                          Table 2. JPSS Schedule Baseline Commitment
         Satellite                                       Launch Date                   NASA Handover to NOAA
         JPSS-1               No later than 2nd quarter of FY 2017                             Launch + 90 days
         JPSS-2               1st quarter of FY 2022                                           Launch + 90 days

       Source: Acting Deputy Secretary Decision Memorandum, August 1, 2013


                               Table 3. JPSS Cost Baseline Commitment (in $ millions)
                                                                                                   FYs
                                       FY              FY       FY      FY      FY      FY
                    Prior                                                                          2020–     Total
                                      2014            2015     2016    2017    2018    2019
                                                                                                   2025
                    5,109.7           824.0           859.4    837.1   800.4   713.9   569.9      1,634.6    11,349

                  Source: Acting Deputy Secretary Decision Memorandum, August 1, 2013

              In November 2013, NOAA’s independent review team updated its assessment of
              NOAA’s satellite enterprise and found that the JPSS program’s scope as a two-satellite
              program (beyond the NASA-built Suomi NPP), with launches scheduled approximately 5
              years apart, is not sufficiently robust for the nation’s weather data needs and compares
              unfavorably with earlier constellations of polar satellites. The review team’s report
              noted that NOAA’s POES13 satellites, for example, were acquired in block purchases
              with a new satellite developed, on average, every 1.8 years.14 Likewise, Department of
              Defense weather satellites were produced every 1.5 years. Purchasing nearly identical
              satellites in short succession resulted in cost savings (contractors could more efficiently
                                                            
13
   NOAA’s current operational satellites were developed under the Polar-orbiting Operational Environmental
Satellites (POES) program. The last POES satellite was launched February 6, 2009, and designated as NOAA-19.
14
   Our examination of the POES program from 1978 onward found that satellites were launched every 2 years,
including both midmorning and afternoon orbit satellites.




8                                                                                                   FINAL REPORT NO. OIG-14-022-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

              produce multiple copies) and more robust development with spare parts available for
              sharing among instruments and spacecraft at different stages of development. Further,
              these heritage satellite programs—with multiple, overlapping missions—guarded against
              unexpected early failures at launch or on-orbit. In such cases, another satellite was
              ready to launch on relatively short notice. As currently planned, a JPSS satellite failure at
              launch or before the end of its mission life could result in years without weather data
              from the afternoon polar orbit (see III.A, below, for discussion of potential data gaps).
              The independent review team also assessed NOAA’s plan to make JPSS-3 and JPSS-4
              acquisitions a separate, follow-on program to be inefficient, costly, and insufficiently
              robust.

              To remedy these shortcomings, the review team suggested a change in NOAA’s
              strategic approach so that two failures of polar satellites must occur before a gap in data
              would emerge. It specifically recommended that NOAA immediately contract at least
              three units each of ATMS and CrIS instruments from the current suppliers. It also
              recommended that NOAA initiate a “gap filler” mission, which would consist of a small
              satellite hosting ATMS and CrIS that could be launched within 3–4 years to ensure the
              availability of critical weather data before a potential gap in 2017. The additional
              instruments would be used for JPSS-2 (now in an early stage of development), as well as
              JPSS-3 and JPSS-4 missions, which the review team argued should be initiated now.

              The review team’s recommendations are more expansive than one we made in
              September 2012: that NOAA soon determine its acquisition strategy for JPSS-3 and
              JPSS-4,15 in order to give the program adequate time to plan and execute those
              acquisitions and avoid future gaps in data from the afternoon orbit. JPSS program
              officials had echoed the need for such decisions and NOAA agreed with our
              recommendation. Whether for budgetary or other reasons, however, the JPSS program
              was only able to move forward, in 2013, with the acquisition of JPSS-2.

              We view the review team’s suggested strategic approach requiring a two-satellite failure
              before a data gap would be realized to be consistent with NOAA’s policy for its other
              critical environmental satellites in geostationary orbit. NOAA’s policy for geostationary
              satellites calls for an on-orbit backup satellite, which is kept in storage mode, ready to
              be activated in the event one of its two operational satellites experiences a failure. This
              policy of fault tolerance has proven useful in recent times as GOES-13 (or GOES-East)
              anomalies have required the activation of the backup satellite, GOES-14.16

              NOAA told us its plans in response to the independent review team recommendations
              will be revealed in appropriations law and budget submissions. In the Consolidated
              Appropriations Act, 2014, Congress provided NOAA the flexibility to use FY 2014 and
              prior funds to procure additional spare instruments and spacecraft as needed to ensure
                                                            
15
  See DOC OIG, OIG-12-038-A, 7, “Acquisition strategy beyond JPSS-2,” and recommendation 2.

16
  See, for example, Commerce OIG, April 2013. Audit of Geostationary Operational Environmental Satellite-R Series: 

Comprehensive Mitigation Approaches, Strong Systems Engineering, and Cost Controls Are Needed to Reduce Risks of 

Coverage Gaps, OIG-13-024-A, 1.





FINAL REPORT NO. OIG-14-022-A                                                                                          9
  U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL

              continuity of polar satellite observations.17 In its FY 2015 budget submission, NOAA
              requested $916.3 million for JPSS, which is $56.9 million more than its established
              baseline for that fiscal year (see table 3, above). However, the JPSS life-cycle cost
              remains at $11.3 billion through 2025. NOAA plans to use the funds, in part, to initiate
              acquisition of additional instruments intended for JPSS-3 and JPSS-4 follow-on missions,
              as well as spare instruments. On March 28, 2014, the JPSS program conducted a gap
              filler mission concept review to further study a satellite, hosting ATMS and CrIS only,
              which could be launched no earlier than the fall of 2019. This mission, if ultimately
              approved, would be part of a follow-on to the currently defined program. The full
              extent of NOAA’s plans may not be explained until the FY 2016 budget request. We
              intend to continue monitoring NOAA’s efforts in these areas.

              The ultimate success of NOAA in acquiring critical polar satellite data is dependent
              upon the support of stakeholders in the Administration and Congress. Another of our
              prior JPSS-related recommendations concerned providing executive and legislative
              decision makers with complete, objective, and understandable data that illustrate the
              consequences of limiting satellite observational capabilities.18 To gain stakeholder
              support, NOAA must provide the outcome of its analysis and full response to the
              independent review team recommendations, articulated in a formal decision
              memorandum or acquisition strategy.

Recommendations

We recommend that the NOAA Administrator

       1.	 Establish reporting metrics to ensure adequate coordination among JPSS, SIDAR, and
           NASA climate instrument programs for review at monthly Program Management
           Council meetings.

       2.	 Ensure that JPSS-2 operations and sustainment costs beyond FY 2025 are delineated in
           stakeholder briefing materials about plans for additional missions.

       3.	 Leverage OAM-led cost analysis expertise to explore cost savings opportunities in
           acquisitions beyond JPSS-2.

       4.	 Ensure that stakeholders are provided formal documentation of NOAA’s response to
           independent review team recommendations and its corresponding acquisition strategy.

 



                                                            
17
   This language can be found in the explanatory statement incorporated by reference into the Consolidated
Appropriations Act, 2014. See: 160 Cong. Rec. H510 (daily ed. Jan. 15, 2014) (statement of Rep. Rogers).
18
   See recommendation 7 in DOC OIG, September 2011. Audit of the Joint Polar Satellite System: Challenges Must be
Met to Minimize Gaps in Polar Environmental Satellite Data, OIG-11-034-A, Washington, DC: DOC OIG, 14.




10                                                                                   FINAL REPORT NO. OIG-14-022-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

 II.	       NOAA Leadership Deemed JPSS-1 Ready for the Next Phase of
            Development—but Technical, Schedule, and Programmatic Challenges Await

        JPSS-1 satellite development is now undergoing key integration and test activities. The flight
        project took steps to reduce risks due to a lack of spare parts for key JPSS-1 instruments
        and its launch vehicle. Scheduling of ground system development was complicated due to
        issues with construction at the primary and backup facilities. In July 2013, subsequent to the
        JPSS-1 mission’s preliminary design review, the NOAA Administrator approved the project
        milestone Key Decision Point-C and the project’s continuation into the implementation
        phase. The program’s standing review board, however, had concerns with the mission’s
        integrated master schedule—which it planned to further assess once subsystem schedules
        were completed and fully integrated with the mission schedule.

        A.	 The JPSS-1 flight project currently has adequate schedule margins, but integration and test
            activities could diminish schedule margins and funding reserves

              As of February 2014, the flight project’s schedule had a robust 6.5 months of reserve,19
              which was 1.5 months more than what NASA standards required. All of the instruments
              that will fly on JPSS-1 had been built and some had begun to undergo environmental
              testing, which involves simulating conditions encountered during launch or flying in
              space such as vibration, electro-magnetic radiation, and temperature extremes in a
              thermal vacuum chamber. Such testing (including a subsequent round of environmental
              testing once the instruments are integrated with the spacecraft) provides mission
              assurance by rooting out problems that cannot be resolved once the satellite is on-
              orbit. Spacecraft development, which is currently the primary critical path20 for the JPSS-
              1 launch schedule, is on track. However, challenges that the flight project faces include
              (1) a need for critical spare parts for instrument development, (2) instrument
              development schedule reserve reduction, and (3) a lack of launch vehicle spare parts.

              1. The flight project addressed a need for critical spare parts, which had
              challenged JPSS-1 instrument development. Development of VIIRS, CrIS, and OMPS,
              which began under NPOESS, had been at risk because of insufficient critical spare parts,
              some of which were used to complete the Suomi NPP models of these instruments.

              To mitigate the risks, managers told us the flight project identified and ranked critical
              parts based on a risk assessment. It accelerated parts purchases and was also able to
              obtain VIIRS parts, in December 2012, that were owned but no longer needed by the
              Air Force after it cancelled the Defense Weather Satellite System in January of that year.
              High priority critical spares for all instruments have now been procured, according to
                                                            
19
   Schedule reserve is a separately planned quantity of time above the planned duration estimate reflected in the
integrated master schedule. Intended to reduce the impact of missing schedule objectives, schedule reserve is a
recommended practice used for future situations that are impossible to predict based on risks and uncertainty.
20
   Critical path describes the sequence of tasks in a schedule that represent the longest overall duration from “time
now” through project completion. Any slippage of tasks in the critical path will increase the project duration.




FINAL REPORT NO. OIG-14-022-A                                                                                       11
  U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

      project managers, but other spare parts are lacking. With the instruments assembled
      and functional testing completed, there is less likelihood of damage to critical
      components. As a result, the JPSS-1 mission has reduced its exposure to this risk. If a
      problem occurs, a lack of spare parts would delay delivery of an instrument for satellite
      integration by the time it takes to procure, manufacture, test, and integrate the
      unavailable parts.

      The flight project indicated that acquisition of JPSS-1 spares had occurred mostly at the
      piece part level, but in some cases component-level parts—detector assemblies, single
      board computers, and electronic boards—were procured. The project told us that for
      JPSS-2 instruments, it is procuring spare parts at higher levels of assembly. Unless more
      copies of instruments (for additional missions) are procured, however, there will
      continue to be risk associated with lack of spares.

      VIIRS is the most technically challenging instrument to fly on JPSS-1. The instrument is
      undergoing environmental testing and is scheduled to be integrated on the JPSS-1
      satellite in April 2015, after which further environmental testing will occur. Spare parts
      are crucial to resolving anomalies discovered during testing, particularly since VIIRS
      development is one of the critical paths for the JPSS-1 mission. As of February 2014,
      VIIRS had 4 months of schedule margin (down from the 6-months margin it held in
      September), meaning delays greater than 4 months would likely delay the JPSS-1 launch
      readiness date. Unlike other JPSS-1 instrument developments, the program included an
      option for a second VIIRS, for JPSS-2, in the contract with Raytheon Space and Airborne
      Systems. And the development of the JPSS-2 VIIRS flight model has given the flight
      project some needed flexibility. In one case, the JPSS-2 flight model’s Day/Night band
      timing card was used as a replacement part on the JPSS-1 VIIRS to resolve a digital noise
      problem encountered during ambient testing. Unfortunately, other JPSS-1 instrument
      developments do not have this flexibility.

      2. The Cross-track Infrared Sounder (CrIS) schedule reserve has been reduced.
      CrIS development illustrated the type of schedule slip that can occur during integration
      and testing. Due to anomalies discovered during subsystem integration and testing, CrIS
      development lost 4 months of schedule reserve between March 2013 and June 2013. In
      July 2013, a test anomaly led to the discovery of a vacuum leak in the detector cooler
      module, a CrIS sub-component. In March 2014, the flight project reported that the
      anomaly, now corrected, had cost $500 thousand and delayed CrIS development by 6
      months. On March 21, 2014, an issue with the thermal vacuum test chamber delayed
      completion of testing and the instrument delivery date by 1 month. The flight project
      schedule reserve remained within NASA guidelines, in part because it was able to
      change the order of instruments’ integration with the spacecraft.

      3. JPSS-1 launch vehicle risk involves potential lack of spare parts. JPSS-1 will be
      placed into polar orbit by a Delta II rocket, one of only five remaining launch vehicles of
      this type, which was used to very successfully launch the Suomi NPP satellite. Until
      recently, JPSS-1’s launch vehicle was slated to be near the last of the remaining Delta II
      rockets to launch. As such, the program identified the launch vehicle and services as a
      concern due to limited spare parts (which could be further limited as the remaining


12                                                                      FINAL REPORT NO. OIG-14-022-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL

              rockets are launched ahead of JPSS-1). The launch services contractor identified parts
              that it considered irreplaceable or critical hardware—whose availability, loss, or damage
              cannot be remedied without serious impact to program cost, schedule, or technical
              performance—and instituted a quality assurance program over its process controls. In
              November 2013, as a result of another mission’s delay, the program indicated that the
              JPSS-1 launch vehicle will move ahead to third place in its Delta II production queue,
              somewhat reducing this risk.

       B.	 Delayed work on facilities complicated the scheduling of ground system upgrades, which added
           risk to JPSS-1 development and resulted in prolonged operational use of inadequate security
           controls

              The current JPSS ground system—which supports Suomi NPP and was originally
              designed and partially built under NPOESS—has only a limited backup unit in Aurora,
              Colorado;21 includes outdated hardware and software; and lacks required security
              controls. In order to correct these shortcomings, the program must upgrade the system
              to support Suomi NPP and the launch of JPSS-1. The management and operations node
              of the JPSS ground system is housed at the NOAA satellite operations facility (NSOF) in
              Suitland, Maryland. An alternate processing site (i.e., a full backup unit) is planned for
              space in a facility located in Fairmont, West Virginia. Before the ground system could be
              upgraded, power and cooling enhancements were needed at NSOF and space at the
              planned backup facility had to be leased and furnished with necessary infrastructure and
              equipment.

              The ground system upgrades were planned to occur in blocks of hardware changes and
              software releases, with a block to first rectify security weaknesses and make the system
              more operationally robust for Suomi NPP. A subsequent block would support launch
              and operation of JPSS-1. In October 2012, a protest of the NSOF renovation contract
              award caused an automatic 100-day delay of that work. In response, the ground project
              looked to first install necessary equipment at the backup facility and revised its schedule
              accordingly.

              In early 2013, however, ground project personnel determined that the backup facility
              construction in Fairmont was not going to be completed in time for its revised plan.
              This led the program to delay completion of the JPSS-1 mission preliminary design
              review (it was divided into two parts, 4 months apart) in order to revamp its ground
              system upgrade plan.


                                                            
21
   After the satellite was launched, the program built a “stop-gap” backup unit with ability to command Suomi NPP
and perform other mission critical functions needed to maintain the satellite in the event the primary command
and control node, at NSOF becomes unavailable. The stop gap backup lacks data processing, accounting, and
situational awareness capabilities of a full backup. It was built, in part, in response to a recommendation we made
in our September 2011 report Audit of the Joint Polar Satellite System: Challenges Must Be Met to Minimize Gaps in
Polar Environmental Satellite Data (OIG-11-034-A).




FINAL REPORT NO. OIG-14-022-A                                                                                     13
  U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

         The ground project ultimately chose to combine the two blocks into a single major
         upgrade (see figure 2) and will instead implement some security fixes to the existing
         infrastructure as part of an extension of the current implementation block. This
         measure reduces the number of technical reviews the program must conduct with the
         ground system contractor, thus saving costs. And if it stays on schedule, the program
         will have a longer period of time to test the ground system and its compatibility with the
         satellite prior to JPSS-1 launch. In the interim period before the upgrade, however, the
         program is at greater risk of disruptions to the availability of Suomi NPP data due to the
         delay in providing a more secure and reliable system for operational use.

                     Figure 2. Revisions to Schedule of Ground System Upgrades




     Source: OIG, from JPSS ground project schedules
     Figure shows approximate dates for completion of site acceptance testing, after which the system will be used
     for JPSS-1 compatibility tests. Operational readiness of the ground system (for use for Suomi NPP and the
     actual launch of JPSS-1) will be later than shown here. Block 1.5 (initially consisting of two parts, 1.5.1 and
     1.5.2) was intended to operationalize the system for Suomi NPP and remedy security weaknesses. Block 2.0
     was initially intended to further enhance the system in support of JPSS-1 launch but will now include
     improvements from Block 1.5. Not shown is an incremental upgrade (Block 1.2.4) to the existing operational
     ground system, which will provide security-related software patches and other fixes for Suomi NPP operations
     but will not support JPSS-1.

         Management was unable to identify a root cause for the schedule discrepancy between
         the ground project plans and the backup facility work. One official compared the
         relatively short amount of time identifying and planning JPSS backup needs with that of



14                                                                                    FINAL REPORT NO. OIG-14-022-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                         OFFICE OF INSPECTOR GENERAL

        the GOES-R program, which had been planning backup facility use for more than 5
        years.

        Even with senior NOAA management’s involvement, the backup unit schedule issue
        persisted into June 2013, during the second part of the preliminary design review. At
        that juncture, the program identified three options to work around the schedule
        conflict. In late October 2013, however, it chose a fourth: to operate the backup unit
        remotely for scheduled compatibility tests with the JPSS-1 satellite, resolving the
        schedule conflict, which had persisted for a year.

    C.	 Despite uncertainties in the JPSS-1 mission master schedule, the standing review board
        recommended approval of Key Decision Point-C

        At the completion of the JPSS-1 mission preliminary design review in June 2013, the
        standing review board identified two issues that the program must overcome. First,
        completion of the backup facility construction was expected approximately 6 months
        later than what the program needed for its mission schedule. While the program had
        identified mitigation options to overcome this schedule conflict, it had not determined
        cost and schedules for the options.

        Second, the program’s integrated master schedule lacked information from the ground
        project. A major contract change order for the ground system upgrades was not
        finalized, and a detailed schedule for the upgrades would not be completed until January
        2014. In addition, the schedules for NOAA enterprise systems that further process and
        distribute JPSS data were not complete and therefore not integrated with the JPSS
        master schedule. Lacking this information, the board indicated that overall program risk
        could not be determined. It planned to review the completed schedules as they became
        available in 2014.

        Based on the limited schedule data available for the preliminary design review, however,
        confidence in the JPSS-1 launch date varied among different entities that independently
        performed schedule risk analyses (see figure 3, below).

                  Figure 3. JPSS-1 Launch Dates at 70 Percent Confidence Level




   Source: OIG adaptation of JPSS program information presented for Key Decision Point-C




FINAL REPORT NO. OIG-14-022-A                                                                        15
  U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL

              The program had 70 percent confidence that it would be able to launch JPSS-1 by its
              commitment of no later than the second quarter of FY 2017. The standing review board
              and a separate consultant each found that a later launch date—in the third quarter of FY
              2017—was at the 70 percent confidence level. Yet another NASA assessment—by the
              Goddard Space Flight Center’s Resource Analysis Office—found that 70 percent
              confidence in a launch date was not achieved until the end (September 30) of FY 2017.
              The differences were attributed to the various entities assigning higher levels of
              uncertainty to discrete risks for the spacecraft, instruments, and launch vehicle.

              The standing review board also highlighted strengths in the program. Most notably, (a)
              the JPSS-1 instruments and spacecraft were at a high level of technical maturity for this
              stage of development; (b) the ground system—while complex and in need of technical
              upgrades—was a functioning system; and (c) the program was staffed with very capable
              government employees—in particular, those in program and systems engineering
              leadership positions. Despite the uncertainty in the JPSS-1 schedule, the review board
              recommended that NOAA leadership approve Key Decision Point-C, allowing the
              program to move forward with the next phase of development.

              In July 2013, the (acting) Under Secretary for Oceans and Atmosphere and NOAA
              Administrator approved the JPSS-1 project’s (the combined flight and ground project
              elements constituting the JPSS-1 mission) Key Decision Point-C, transitioning the
              project to the implementation phase known as final design and fabrication. The decision
              also commits the project to cost and schedule baselines: a total flight element cost of
              $1.6 billion (through FY 2022) and a launch date no later than the second quarter of FY
              2017.

              NOAA’s facility issues and the October 2013 federal government shutdown delayed the
              next series of design reviews—intended to demonstrate that the maturity of system
              design is appropriate for proceeding with assembly, integration, and test—for the
              ground project and JPSS-1 mission by approximately 6 and 3 months, respectively. To
              formally resolve the standing review board’s concerns, the program presented a
              completed integrated master schedule at the JPSS-1 mission’s critical design review in
              April 2014.22 The mission’s launch readiness date had not changed.

Recommendation

We recommend that the NOAA Assistant Administrator for Satellite and Information Services

       5.	 Ensure that stakeholders (including Congress) are provided updated information on the
           results and confidence level of the JPSS-1 mission’s integrated master schedule.

 
                                                            
22
  Subsequent to our draft report, a May 16, 2014, program note indicated that the standing review board and
NASA’s Independent Program Assessment Office “concluded that the JPSS-1 project’s cost and schedule analysis
results at the mission critical design review were reasonable.” We have not reviewed these analyses.




16                                                                                FINAL REPORT NO. OIG-14-022-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

III.	      NOAA Has Begun Gap Mitigation Activities but Should Do More to Help
           Stakeholders Understand the Consequences of a Gap

        Beginning with our first audit report on JPSS, in September 2011, we have published
        assessments of the length of potential gaps in polar satellite data from the afternoon orbit.
        Our current assessment remains consistent with our 2012 projection of a potential 10- to
        16-month gap in continuity between Suomi NPP’s end of design life and the availability of
        JPSS-1 operational weather data. NOAA’s efforts to mitigate forecast degradation resulting
        from the potential data gap were funded in an FY 2013 supplemental appropriation.
        Stakeholders, and thus the JPSS program, would benefit were NOAA better able to
        communicate the consequences of an afternoon orbit weather data gap—in terms of the
        extent of expected forecast degradation and, further, the resulting economic costs.

        A.	 The avoidance of gaps will depend upon whether on-orbit satellites continue to operate and the
            constellation’s ability to tolerate unexpected failures

            Using informed assumptions of Suomi NPP’s operational life, a probable launch date for
            JPSS-1, and the range of time it will take to calibrate JPSS-1 key instruments (ATMS,
            CrIS, and VIIRS) and their data or imagery, we find potential for a gap in the continuity
            of data or imagery lasting 10–16 months as detailed in figure 4 (below).

         Figure 4. Potential Gap in Data Continuity Between Suomi NPP and JPSS-1




        Source: OIG analysis of NOAA data
        a
          Various potential problems could extend the amount of time needed to complete calibration and validation.



FINAL REPORT NO. OIG-14-022-A                                                                                         17
  U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL

        Our assessment considers the risk of a data continuity gap arising from the aging of
        Suomi NPP and the scheduled operation of JPSS-1, but we also note the overall fragility
        of NOAA’s polar satellite constellation. NOAA may need to rely, over extended
        periods of time, on a single polar satellite; a catastrophic launch or early failure of a
        spacecraft or instruments could significantly increase the duration of time without data
        from the afternoon orbit. These types of failures were of particular concern for
        NOAA’s independent review team, leading to its recommendations to make the polar
        constellation more fault-tolerant. Figure 5 (below) depicts the minimal overlap in
        planned missions, which could leave NOAA at risk from a single satellite failure.

               Figure 5. NOAA Afternoon-orbit Polar Satellite Constellation
                             with Potential Continuity Gap




     Source: OIG analysis of NOAA data

        In FY 2013, the JPSS program analyzed the expected reliability of Suomi NPP based on
        its on-orbit experience to date and applied various statistical methodologies that led it
        to conclude that the potential gap had lessened to 3 months or less. In addition, it
        analyzed legacy afternoon orbit polar satellites that still provide sounder data and
        imagery (e.g., NOAA’s POES and NASA’s Aqua satellite still on orbit) that could
        partially mitigate the loss of JPSS (including Suomi NPP) data or imagery. According to
        NOAA, these legacy satellites produce lower quality microwave sounder data and
        imagery than what JPSS instruments provide. And NASA’s Aqua satellite, launched in


18                                                                        FINAL REPORT NO. OIG-14-022-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL

              2002, produces roughly the same quality infrared sounder data as CrIS. The program’s
              updated analysis concludes that, as these legacy satellites age into the late 2010s, they
              will no longer be able to (partially) mitigate the loss of JPSS data. This suggested that an
              acceleration of the JPSS-2 satellite’s launch would mitigate risk of a premature failure of
              JPSS-1.

              To reduce the likelihood of a gap in the near term, the JPSS program assessed the
              feasibility of launching JPSS-1 earlier. In a November 2012 report, however, the program
              concluded that neither the flight or ground projects could accelerate activities to
              support an earlier launch date. NOAA and the program maintain that attempts to do so
              would result in increased technical, cost, and schedule risk—and inhibit both projects’
              ability to respond to development, satellite integration, test, and launch preparation
              issues. Further, as discussed in section I.C. of this report, NOAA is considering
              additional missions in response to independent review team recommendations to make
              its polar satellite constellation able to withstand early or catastrophic failures of a single
              satellite that would lead to gaps in data.

              In October 2012, NOAA commissioned a study to identify and analyze alternatives for
              mitigating the effects of a loss of data from the afternoon polar orbit. The study
              report,23 released in February 2013, made 17 recommendations such as making greater
              use of currently available data (e.g., from GPS satellites, aircraft, and other
              observations), data from future sources (e.g., next-generation geostationary satellites
              currently under development), and improving data assimilation for numerical weather
              prediction models. In the Disaster Relief Appropriations Act of 2013,24 NOAA received
              $105 million (after sequestration) for a weather satellite data mitigation gap reserve
              fund.25 NOAA used this fund to begin implementing 12 of the study’s recommendations.

       B. NOAA has not fully identified the consequences of a data gap

              NOAA’s gap mitigation plan documents its strategy for preparing for and responding to
              a potential data gap between Suomi NPP and JPSS-1. More specifically, the data gap it
              addresses pertains to the potential loss of global microwave and infrared sounder data
              provided by ATMS and CrIS instruments, respectively, and imagery of the Alaskan
              region produced by VIIRS. Each is a key performance parameter for the JPSS program.

              Polar satellite microwave and infrared sounder data are used to create temperature and
              moisture profiles of the atmosphere and have a significant positive impact on weather
              forecast model accuracy relative to other data types.26 European satellites provide this
                                                            
23
   Riverside Technology, Inc., February, 15, 2013. JPSS Gap Mitigation Analysis of Alternatives, Silver Spring, MD:
Riverside Technology.
24
   P.L. 113-2, enacted January 29, 2013.
25
   NOAA received a total of $309.7 million (after sequestration) in the supplemental appropriation, which included
the weather satellite data gap mitigation reserve fund, available until September 30, 2015.
26
   For example: we obtained a European Centre for Medium-Range Weather Forecasts (ECMWF) study of the
statistical estimation of relative improvement made to operational numerical weather prediction by various
 


FINAL REPORT NO. OIG-14-022-A                                                                                    19
  U.S. DEPARTMENT OF COMMERCE                                                                                                              OFFICE OF INSPECTOR GENERAL

              data from the midmorning orbit and NOAA satellites provide this data from the early
              afternoon. VIIRS imagery allows NOAA to monitor and track weather over Alaska and
              surrounding oceans, where the availability of other weather data is limited.

              While the mitigation plan offers evidence of the importance of polar satellite data in
              general, it does not provide a clear explanation of the impact the loss of data from the
              afternoon orbit would have on weather forecasting. Along with the independent review
              teams’ November 2013 report, NOAA officials provided a memo indicating that the loss
              of afternoon orbit data would create a 25 percent chance that forecasts would miss
              extreme weather events. We believe, however, that NOAA could do more to explain
              the consequences of a gap—or, conversely, to explain the quantifiable benefits of
              afternoon orbit data. These explanations may be presented in economic terms; NOAA
              has economic data for severe weather events as illustrated in figure 6, below.

                         Figure 6. U.S. Billion-Dollar Weather and Climate Disasters in 2013




                           Source: www.ncdc.noaa.gov/billions/

              In December 2012, NOAA publicized27 a study that found that the forecast track for
              Hurricane Sandy would have been significantly less accurate if all polar satellite data had
              been excluded from forecast models.28 This same study, however, also found that there
              would have been no significant change in the 5-day forecast for Sandy when numerical
                                                                                                                                                                                                
observing systems, using a technique called adjoint model sensitivity. Microwave and infrared sounders were the
instruments that contributed most to reducing forecast errors.
27
   http://www.noaanews.noaa.gov/stories2012/20121211_poesandsandy.html
28
   ECMWF, March 2013. The Role of Satellite Data in Forecasting Hurricane Sandy. Shinfield Park, Reading, Berkshire
RG2 9AX, England: ECMWF.




20                                                                                                                                            FINAL REPORT NO. OIG-14-022-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                         OFFICE OF INSPECTOR GENERAL

              weather prediction models were denied polar satellite sounder data but provided
              scatterometer and global positioning system radio occultation data from other satellites.
              The study did not examine the impact the loss of just afternoon orbit polar satellite
              sounder data would have had on the Sandy forecast.

              NOAA’s National Centers for Environmental Prediction (NCEP), however, has
              previously completed seven data denial case studies of this type. In our 2011 audit
              report, we discussed data denial studies NOAA had conducted that year, which
              compared historical forecasts of five significant weather events with simulated forecasts
              that had been denied data from the afternoon polar orbit. Two of the studies concluded
              that, without the afternoon orbit polar satellite data, the significant event forecasts at 5,
              4, and 3 days were significantly degraded. Subsequently, NOAA completed two
              additional data denial case studies examining the effect of the loss of afternoon orbit
              data on the forecasts of two hurricanes (which occurred in August 2011); in one case,
              the hurricane track forecast was slightly degraded while the other was largely
              unchanged.

              NCEP officials told us that the studies, collectively, underscored the importance of polar
              satellite data—but that the results could not be used to identify specific weather events
              or types of events for which forecasts would be most at risk without afternoon orbit
              data. According to NCEP, different data types contribute more or less to forecast
              accuracy depending upon the characteristics and timing of a given event. We
              recommended that NOAA provide stakeholders with better information about the
              consequences of limited polar satellite observational capabilities.29

              NOAA’s JPSS Gap Mitigation Analysis of Alternatives (discussed in this report’s section
              III.A, above) recommended that NOAA conduct an experiment that “replicates the
              precise conditions expected as part of the potential data gap”—meaning no data from
              afternoon orbit polar satellites—“and designed in a way that yields better definition
              regarding which numerical weather prediction parameters will be affected and to what
              levels.” NCEP completed this observing system experiment, spanning a period of 7.5
              months, in 2013. The results, however, were not available at the conclusion of our
              fieldwork.

              The lack of a clear, specific explanation of how a gap would affect weather forecasts was
              a complaint of members of NOAA’s independent review team during its discussions
              with NOAA’s satellite programs in August 2013. In response, NOAA issued a statement
              from the Deputy Under Secretary and the Director, National Weather Service. They
              concluded, based upon “multiple satellite data denial studies . . . conducted both
              nationally and internationally,” that “a lack of JPSS quality p.m. polar orbiter data would
              erode everyday weather forecasts and expose the nation to a 25 percent chance of
              missing extreme event forecasts that matter most.”30 National Weather Service staff
              told us, however, that the statement was based on the seven data denial case studies
                                                            
29
     DOC OIG, OIG-11-034-A, 14, recommendation 7.

30
     NOAA NESDIS Independent Review Team, Assessment Update, Washington, DC: NOAA NESDIS IRT, 42.





FINAL REPORT NO. OIG-14-022-A                                                                            21
  U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

              NCEP conducted in 2011 (two of which, or 28 percent of the studies, showed significant
              forecast degradation). The statement seemingly helped convince the review team that a
              gap in weather data from the afternoon polar orbit could “have catastrophic national
              consequences.”31

              NOAA, however, has not yet provided an impact analysis of the loss of just the
              afternoon orbit data in terms of degraded forecast hours or economic costs. Nor has it
              quantified the economic benefits of afternoon orbit data. By providing such information,
              which could better justify investments in environmental satellite capabilities, NOAA
              would benefit stakeholders’ decision-making. Therefore, along with the studies recently
              completed, NOAA should do more to communicate, in quantifiable terms, the
              importance of its polar satellite data.32

Recommendation

We recommend that the NOAA Deputy Under Secretary for Operations

       6.	 Direct appropriate NOAA entities to explain the effects of a potential afternoon orbit
           data gap in terms of degraded forecast hours and extrapolated economic costs, or
           conversely, the contribution to forecast accuracy and the economic benefits of
           afternoon orbit data.




                                                            
31
  NOAA NESDIS Independent Review Team, Assessment Update, 15.

32
  Relatedly, NOAA’s Analysis of Alternatives (discussed in part B.) contractor recommended that NOAA establish a 

dedicated work center with resources to conduct observing system and other experiments to provide quantitative 

guidance in support of decision-making. 





22                                                                                  FINAL REPORT NO. OIG-14-022-A 
  DEPARTMENT OF COMMERCE
U.S.                                                            OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and OIG
Comments
In response to our draft report, NOAA concurred with all of our recommendations and
reported on some of the activities it has or will take to implement the recommendations.
NOAA also included technical comments to the draft report, from which we made changes to
the final report where appropriate. We have included NOAA’s formal response as appendix E.




FINAL REPORT NO. OIG-14-022-A                                                            23
  U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
This audit was initiated in December 2012 as part of our FY 2013 work plan and in conjunction
with our Top Management Challenges facing the Department of Commerce (in FY 2013). Our
objectives were to

     1.	 monitor NOAA’s progress toward establishing JPSS cost, schedule, and performance
         baselines,

     2.	 assess ongoing development activities, and

     3.	 review efforts to mitigate a projected data gap between Suomi NPP and JPSS-1.

To accomplish our objectives, we interviewed NOAA and NASA program and project
managers, as well as National Environmental Satellite, Data, and Information Service (NESDIS)
facility managers, regarding progress, issues, and risks in development activities for the JPSS-1
mission and activities supporting the establishment of program baselines. We also interviewed
officials and staff with the Department’s Office of Acquisition Management, NESDIS, National
Weather Service, and the Joint Center for Satellite Data Assimilation. We reviewed extensive
program and budget-related documentation. And we attended multiple JPSS program
management, life-cycle, and technical reviews, including
     	 monthly NOAA/NASA Program Management Councils (PMCs),
     	 monthly ground system contractor program management reviews,
     	 JPSS-1 delta spacecraft critical design review, December 10–13, 2012,
     	 JPSS-1 flight delta critical design review, February 13–14, 2013,
     	 JPSS-1 mission preliminary design review step 1, February 25–28, 2013,
     	 Ozone Mapping and Profiler Suite (OMPS) pre-environmental review, April 3–4, 2013,
     	 NOAA satellite conference, April 8–12, 2013,
     	 JPSS mission preliminary design review step 2, June 18, 2013,
     	 JPSS program system definition review, June 19–20, 2013,
     	 NOAA PMC JPSS Program Key Decision Point-I readiness review and JPSS-1 Mission
        Key Decision Point-C, July 17, 2013, and
     	 NESDIS presentations for Independent Review Team, August 21–23, 2013.

We reviewed internal controls significant within the context of our audit objectives:
NOAA/NASA satellite acquisition program and project management policies and practices, the
JPSS Management Control Plan, program schedules, and program reviews. The findings and
recommendations in this report are inclusive of this review. In addition, we also reviewed the


24                                                                           FINAL REPORT NO. OIG-14-022-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

Disaster Relief Appropriations Act Internal Control Augmentation Plan but did not test
whether the plan had been followed. We detected no incidents of fraud, illegals acts, violations,
or abuse within our audit. We did not rely on computer-processed data to perform this audit.

Although we could not independently verify the reliability of all the information we collected,
we compared it with other available supporting documents to determine data consistency and
reasonableness. From these efforts, we believe the information we obtained is sufficiently
reliable for this report.

We performed our work in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence that provides a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

We conducted our review from December 2012 through March 2014 under the authority of
the Inspector General Act of 1978, as amended, and Department Organizational Order 10-13.
We performed field work at
       NOAA headquarters in Silver Spring, Maryland,
       JPSS program office in Lanham, Maryland,
       Raytheon’s facility in Aurora, Colorado,
       Ball Aerospace & Technologies Corporation’s facility in Boulder, Colorado, and
       NOAA Center for Weather and Climate Prediction in College Park, Maryland.

 




FINAL REPORT NO. OIG-14-022-A                                                                     25
  U.S. DEPARTMENT OF COMMERCE                                        OFFICE OF INSPECTOR GENERAL


Appendix B: JPSS Background 

Program origins and the risk of a gap: The Joint Polar Satellite System (JPSS) program was
established in 2010 when the Administration chose to restructure the troubled NPOESS—a tri-
agency partnership among the Department of Defense, NOAA, and NASA—into separate civil
and defense programs. JPSS currently supports the operation of one satellite and is developing
and launching two, next-generation polar-orbiting satellites (JPSS-1 and JPSS-2) with new, more
capable instruments to replace NOAA’s legacy polar satellites. Given delays that began with
NPOESS and the aging of NOAA’s existing satellites, there is potential for a gap in polar
satellite environmental data, some of which have been the most significant contributors to the
accuracy of medium-range (3–7 day) forecasts produced by numerical weather prediction
models. A degradation of such forecasts could inhibit NOAA’s ability to provide emergency
managers with information needed to adequately prepare for extreme weather events and
protect lives and property.

     Figure B-1. JPSS-1 Satellite, Including Instruments and Other Key Components




Source: Ball Aerospace & Technologies Corporation

The afternoon (polar) orbit: NOAA’s polar satellites travel in sun-synchronous orbit—
crossing a given latitude at the same time of day as the earth rotates underneath—which allows
the satellites to collect data over the entire globe. NPOESS was originally intended to provide
next-generation satellites for three different polar orbits, identified by the time of day they
cross the equator: early morning, midmorning, and early afternoon. In 2006, as a result of
NPOESS cost and schedule delays, European satellites were given responsibility for the
midmorning orbit. With the restructuring in 2010, the Department of Defense was made
responsible for the early morning orbit, and NOAA—partnering with NASA—became
responsible for the afternoon orbit, considered the most important for operational weather
forecasting.




26                                                                     FINAL REPORT NO. OIG-14-022-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                                                     OFFICE OF INSPECTOR GENERAL

System capabilities: JPSS has four key performance parameters (system capabilities) that, if not
met, “would compromise NOAA’s weather mission to provide essential warnings and forecasts
to protect lives and property, and would be cause for program reevaluation or cancellation,”33
including
       	 Advanced Technology Microwave Sounder (ATMS) data,
       	 Cross-track Infrared Sounder (CrIS) data,
       	 Visible Infrared Imaging Radiometer Suite (VIIRS) imagery (in specified channels) for
          latitudes above 60 degrees North in the Alaskan region, and
       	 96 minute data latency (the time period from satellite observation until the data or
          imagery are available to users at the distribution system) for ATMS, CrIS, and VIIRS key
          performance parameters

                                                 Table B-1. JPSS Instrument Descriptions

       Instrument                                                                              Description

                                                               Provides temperature and moisture sounding capabilities by hosting 22
                                                               microwave channels. ATMS and CrIS together provide profiles of
Advanced Technology Microwave
                                                               atmospheric temperature, moisture, and pressure. The combined
Sounder (ATMS)
                                                               ATMS/CrIS sensor suite is called the Cross-track Infrared and
                                                               Microwave Sounder Suite (CrIMSS).

                                                               Measures the three-dimensional structure of atmospheric temperatures,
Cross-track Infrared Sounder
                                                               water vapor and trace gases. CrIS provides over 1,000 infrared spectral
(CrIS)
                                                               channels at an improved horizontal spatial resolution.


                                                               Collects visible and infrared radiometric data of the Earth's atmosphere,
Visible Infrared Imaging                                       ocean, and land surfaces. Some of the data types include atmospheric
Radiometer Suite (VIIRS)                                       parameters, clouds, Earth radiation budget, land/water and sea surface
                                                               temperature, ocean color, and low light imagery.

                                                               Collects data to calculate the vertical and horizontal distribution of ozone in
                                                               the Earth's atmosphere. OMPS consists of separate nadir and limb
Ozone Mapping and Profiler Suite                               sensors. Measurements from the nadir sensor are used to generate
(OMPS)                                                         total column ozone measurements, while measurements from the limb
                                                               sensor generate ozone profiles of the along-track limb scattered solar
                                                               radiance.
                                                               Measures both solar-reflected and Earth-emitted radiation from the top of
Clouds and the Earth's Radiant                                 the atmosphere to the Earth's surface. CERES is used to observe and
Energy System (CERES) and                                      understand the role of clouds and the energy cycle in global climate
Radiation Budget Instrument (RBI)                              monitoring and prediction. JPSS-2 will host the next generation of this
                                                               sensor, which will be called the Radiation Budget Instrument (RBI).
Source: JPSS program documentation

                                                            
33
 National Environmental Satellite, Data, and Information Service, June 27, 2013. JPSS Level 1 Requirements
Document–Final, version 1.7. Silver Spring, MD: NESDIS, 8.




FINAL REPORT NO. OIG-14-022-A                                                                                                               27
  U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL

ATMS and CrIS data together combine to provide what is currently the most important type of
data for numerical weather prediction models. VIIRS imagery is used in monitoring and
forecasting Alaska weather, where there is a lack of other quality environmental data. The
other instruments to be hosted on JPSS satellites are the Ozone Mapping and Profiler Suite
(which includes a nadir sensor, designated OMPS-N, and a limb sensor, designated OMPS-L34),
the Clouds and Earth’s Radiant Energy System (CERES), and, on the second JPSS satellite,
CERES’ follow-on, the Radiation Budget Instrument (RBI). Beyond weather forecasting and
situational awareness, JPSS data is used to monitor environmental conditions such as droughts,
forest fires, volcanic ash, and ozone levels for treaty compliance. JPSS observations will also be
used to monitor other climate variables, continuing more than 30 years of such polar satellite
data.

JPSS component projects: The NASA component of the JPSS program currently consists of
two interrelated projects: flight (responsible for developing the primary JPSS satellites and
supporting Suomi NPP), and ground (responsible for developing the ground system that
commands and controls the primary satellites, processes their data, and collects and distributes
data from partner organizations’ satellites). NOAA is responsible for acquiring other ground
system components that further process and distribute data to users. A third project, free flyer,
was responsible for developing two smaller satellites that would fly climate, search and rescue,
and in situ data collection instruments, but was transferred out of the JPSS program at the start
of FY 2014. Flight is currently focused on JPSS-1 development and initial procurement activities
for JPSS-2 while the ground project is planning upgrades to refresh, operationalize, and better
secure the ground system for Suomi NPP and later, for JPSS satellites.

Suomi NPP bridge mission: An early priority for JPSS was to successfully launch a NASA
research and risk reduction satellite, NPOESS Preparatory Project or NPP. This satellite was
built by NASA, with some instruments and the ground system largely built under NPOESS. NPP
was originally intended to demonstrate the next generation of instruments for NPOESS and
continue measurements of NASA’s Earth Observation System. The ground system for NPP was
not built with the redundancy and high-availability requirements of an operational weather
satellite system. In order to prevent a gap in polar satellite data, however, the NPOESS
executive committee decided that NPP data should be used operationally. After nearly 2 years
of final preparations with the JPSS program, NPP was launched on October 28, 2011, and
subsequently renamed Suomi NPP (National Polar-Orbiting Partnership). It has performed well,
providing data for operational weather forecast centers and effectively mitigating a potential
near-term gap that NOAA was confronting at the time.

Program management and oversight: The JPSS program follows NASA’s space flight program
and project management requirements35 and must meet the intent of the Department of
Commerce’s Scalable Acquisition Project Management Framework, which was instituted in
November 2012 after a prolonged effort to improve the Department’s management and
                                                            
34
   OMPS-L is flying on Suomi NPP but is not planned for JPSS-1. JPSS-2 will host OMPS-L if NASA can deliver in
time for satellite integration and test need dates. 

35
   National Aeronautics and Space Administration, August 2012. Space Flight Program and Project Management 

Requirements w/Changes 1-10, NPR 7120.5E. Washington, DC: NASA. 





28                                                                                   FINAL REPORT NO. OIG-14-022-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

oversight of acquisitions.36 NASA revised its standards in August 2012 to emphasize program
and project formulation activities. Notable benefits of formulation include the identification and
mitigation of high technical, acquisition, cost, and schedule risks—which result in more realistic
cost and schedule commitments as programs and projects are approved for implementation.

To help ensure the adequacy of JPSS program and project formulation and implementation,
NOAA and NASA leadership are assisted by a standing review board which, with the program,
conducts major life-cycle reviews to assess technical and programmatic status and health in
advance of major decision points. Separately, NOAA has chartered an independent review
team, which includes some members of the JPSS standing review board and aims to maximize
the probability of success of NOAA’s satellite portfolio through periodic reviews.

 




                                                            
36
  See DOC OIG, November 2007. Successful Oversight of GOES-R Requires Adherence to Accepted Satellite Acquisition
Practices, OSE-18291. Washington, DC: DOC OIG, as well as Inspector General letter to Honorable Darrell Issa
on open and unimplemented recommendations, June 28, 2013.




FINAL REPORT NO. OIG-14-022-A                                                                                   29
  U.S. DEPARTMENT OF COMMERCE                                                           OFFICE OF INSPECTOR GENERAL


Appendix C: JPSS Cost Estimate History 

                                                                                  2013 Estimate
                        2009 Initial
                                          2011 Estimate       2012 Estimate        (for FY 2014
                         Estimate
                                           (not used for       (for FY 2013     President’s Budget
                       (for FY 2011
                                        President’s Budget) President’s Budget)   and Program
                    President’s Budget)
                                                                                  Commitment)

Life-Cycle Cost
                             $11.9                 $14.7–16.1a                  $12.9                    $11.3
(in billions)


Life-Cycle End                2024                     2028                     2028                     2025

                                                   Suomi NPP,b              Suomi NPP,b
                          Suomi NPP,b                                                                 Suomi NPP,b
Satellites                                        JPSS-1, JPSS-2,          JPSS-1, JPSS-2,
                         JPSS-1, JPSS-2                                                              JPSS-1, JPSS-2
                                                and five free flyers     and two free flyers

JPSS launch             JPSS-1: FY 2015        JPSS-1: Q1 FY 2017       JPSS-1: Q2 FY 2017        JPSS-1: Q2 FY 2017d
readiness dates         JPSS-2: FY 2018        JPSS-2: Q2 FY 2021       JPSS-2: Q1 FY 2022c       JPSS-2: Q1 FY 2022

Source: OIG analysis of data from JPSS program
a
  Cost figures for 2011 represent the program office and independent cost estimates, respectively. These estimates
were based on different assumptions (see report number OIG-12-038-A, Audit of the Joint Polar Satellite System:
Continuing Progress in Establishing Capabilities, Schedules, and Costs Is Needed to Mitigate Data Gaps, issued September
27, 2012). The 2013 program and independent cost estimates were more closely aligned (as discussed in section
I.A.3 of this report).

b
  Estimates include some development and all mission support costs for Suomi NPP. 

c
  This was the JPSS-2 launch readiness date; actual launch date was to be determined.

d
  Current JPSS-1 launch date is no later than Q2 of FY 2017.

 




30                                                                                       FINAL REPORT NO. OIG-14-022-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                                 OFFICE OF INSPECTOR GENERAL


Appendix D: OIG Products Related to NOAA
Satellite Acquisitions
                         Document
Date Issued                                                                    Title
                          Number
                                         Memorandum to the Acting Under Secretary for Oceans and
March 6, 2014           OIG-14-014M      Atmosphere, Audit of NOAA's Geostationary Operational Environmental
                                         Satellite–R Series Core Ground System Observations
                                         Top Management Challenges Facing the Department of Commerce in Fiscal
                                         Year 2014: “Challenge 2. Strengthen Oversight of National Oceanic and
November 25, 2013        OIG-14-002      Atmospheric Administration (NOAA) Programs to Mitigate Potential
                                         Satellite Coverage Gaps, Address Control Weaknesses in Accounting for
                                         Satellites, and Enhance Fisheries Management”
                                         Audit of Geostationary Operational Environmental Satellite-R Series:
April 25, 2013          OIG-13-024-A     Comprehensive Mitigation Approaches, Strong Systems Engineering, and Cost
                                         Controls Are Needed to Reduce Risks of Coverage Gaps

                                         Top Management Challenges Facing the Department of Commerce in Fiscal
November 9, 2012         OIG-13-003      Year 2013: “Challenge 5. Reduce Risks of Cost Overruns, Schedule
                                         Delays, and Coverage Gaps for NOAA’s Satellite Programs”

                                         Audit of the Joint Polar Satellite System: Continuing Progress in Establishing
September 27, 2012      OIG-12-038-A 
                                         Capabilities, Schedules, and Costs Is Needed to Mitigate Data Gaps

                                         Top Management Challenges Facing the Department of Commerce in Fiscal
                                         Year 2012: “Challenge 5. Manage the Development and Acquisition of
October 24, 2011         OIG-12-003 
                                         NOAA’s Environmental Satellite Systems to Avoid Launch Delays and
                                         Coverage Gaps”

                                         Audit of the Joint Polar Satellite System: Challenges Must Be Met to Minimize
September 30, 2011      OIG-11-034-A 
                                         Gaps in Polar Environmental Satellite Data

                                         Memorandum to the Under Secretary of Commerce for Oceans and
June 10, 2011           OIG-11-029-M 
                                         Atmosphere, NOAA's Joint Polar Satellite System Audit Observations

                                         Top Management Challenges Facing the Department of Commerce in Fiscal
December 20, 2010        OIG-11-015      Year 2011: “Effectively Managing the Development and Acquisition of
                                         NOAA’s Environmental Satellite Programs”

                                         Successful Oversight of GOES-R Requires Adherence to Accepted Satellite
November 20, 2007        OSE-18291 
                                         Acquisition Practices

                                         Poor Management Oversight and Ineffective Incentives Leave NPOESS Program
May 8, 2006           OIG-17794-6-001 
                                         Well Over Budget and Behind Schedule

Source: www.oig.doc.gov/Pages/Audits-Evaluations.aspx;
        www.oig.doc.gov/Pages/National-Oceanic-and-Atmospheric-Administration.aspx




FINAL REPORT NO. OIG-14-022-A                                                                                             31
  U.S. DEPARTMENT OF COMMERCE   OFFICE OF INSPECTOR GENERAL


Appendix E: Agency Response 





32                               FINAL REPORT NO. OIG-14-022-A 
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-14-022-A                           33
  U.S. DEPARTMENT OF COMMERCE   OFFICE OF INSPECTOR GENERAL




34                               FINAL REPORT NO. OIG-14-022-A 
  DEPARTMENT OF COMMERCE
U.S.                                           OFFICE OF INSPECTOR GENERAL




                                43NOAA043157




FINAL REPORT NO. OIG-14-022-A                                          35
